Case: 19-16963, 08/31/2020, ID: 11808244, DktEntry: 15-2, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

IKEMEFULA CHARLES IBEABUCHI,
AKA Charles Ikemefula Ibeabuchi,
Plaintiff-Appellant,

No. 19-16963
D.C. No. 2:17-cv-04750-JAT-JZB
District of Arizona,
Phoenix

v.

ORDER
EGGLESTON, Director of Operation,
FOIA/PA, Missouri Branch; et al.,
Defendants-Appellees.
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Ibeabuchi’s petition for panel rehearing (Docket Entry No. 13) is denied.
No further filings will be entertained in this closed case.

Case: 19-16963, 04/13/2020, ID: 11658458, DktEntry: 12-1, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
IKEMEFULA CHARLES IBEABUCHI,
AKA Charles Ikemefula Ibeabuchi,

FILED
APR 13 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16963
D.C. No. 2:17-cv-04750-JAT-JZB

Plaintiff-Appellant,
MEMORANDUM*

v.

EGGLESTON, Director of Operation,
FOIA/PA, Missouri Branch; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Arizona
James A. Teilborg, District Judge, Presiding
Submitted April 7,2020**
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Arizona state prisoner Ikemefula Charles Ibeabuchi, AKA Charles
Ikemefula Ibeabuchi, appeals pro se from the district court’s judgment dismissing
his 42 U.S.C. § 1983 action alleging constitutional claims arising out of his

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case:'19«T6963, 04/13/2020, ID: 11658458, DktEntry: 12-1, Page 2 of 2

immigration detention and his request for documents under the Freedom of
Information Act. We have jurisdiction under 28 U.S.C. § 1291. We affirm.
In his opening brief, Ibeabuchi fails to address how the district court erred
by dismissing his action for failure to state a claim. As a result, Ibeabuchi has
waived his challenge to the district court’s order. See Smith v. Marsh, 194 F.3d
1045, 1052 (9th Cir. 1999) (“[0]n appeal, arguments not raised by a party in its
opening brief are deemed waived.”); Greenwood v. FAA, 28 F.3d 971, 977 (9th
Cir. 1994) (“We will not manufacture arguments for an appellant.. . .”).
We reject as meritless Ibeabuchi’s contentions that the district court clerk’s
description of his motion to reopen the time to appeal was erroneous and that the
district court should have granted him leave to amend sua sponte.
All pending motions are denied.
AFFIRMED.

2

19-16963

(Ease: 2:17-cv-04750-JAT-JZB

Document 27

Filed 11/2U/2U

Page lot Z(

sc

1
2
3
4
5

6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

Ikemefula Charles Ibeabuchi,

10

Plaintiff,

11
12
13

No. CV 17-04750-PHX-JAT (JZB)

ORDER

v.
Unknown Eggleston, et al.,
Defendants.

14
15

Plaintiff Ikemefula Charles Ibeabuchi, who is now confined in CoreCivic’s Eloy

16

Detention Center in Eloy, Arizona, filed a pro se civil rights Complaint pursuant to 42

17

U.S.C. § 1983 (Doc. 1) and an Application to Proceed In Forma Pauperis (Doc. 2). The

18

Court dismissed the Complaint because it failed to state a claim with leave to amend (Doc:

19

8). Plaintiff filed a First Amended Complaint (Doc. 10). In an Order filed on February 26,

20

2019, the Court dismissed the First Amended Complaint because it failed to state a claim

21

but granted Plaintiff 30 days in which to file a second amended complaint (Doc. 12). On

22

April 11, 2019, the Clerk of Court entered a judgment of dismissal after Plaintiff failed to

23

file a second amended complaint (Doc. 13).

24

Plaintiff filed an untimely “Motion for Notice of Appeal Fed. R. App. Proc. 4(b),”

25

which the Court construed as a motion to reopen the time to file an appeal under FRAP

26

4(a)(6) and, so construed, granted (Doc. 15). On September 10, 2020, the Ninth Circuit

27

Court of Appeals issued its mandate affirming the dismissal of this case on April 11, 2019,

28

pursuant to this Court’s February 26, 2019 Order. No. 19-16963 (9th Cir. Sept. 10, 2020).
,

'■*

(base: 2:17-cv-04750-JAT~JZB

Document 27

Filed 11/20/20

Page 2 of 27

1

Plaintiff has filed a Motion Requesting Final Order (Doc. 25). While far from clear,

2

Plaintiff appears to seek a copy of the Judgment in this case and the prior Order dismissing

3

his First Amended Complaint with leave to appeal so that he may seek certiorari. The

4

Court will grant the Motion to that extent. Otherwise, this case is and will remain closed.

5

IT IS ORDERED:

6
7
8

9
10
11
12

(1)

Plaintiffs “Motion Requesting Final Order” (Doc. 25) is granted to the

extent stated below and is otherwise denied.
(2)

The Clerk of Court must send Plaintiff a copy of the Judgment (Doc. 13) and

the February 26, 2019 Order (Doc. 12) to the address provided on his Motion Requesting
Final Order.
(3)

The Clerk of Court must update the docket to reflect Plaintiffs current

address as listed on his Motion Requesting Final Order.

13

(4)

This case must remain closed.

14

Dated this 20th day of November, 2020.

15
16

R3

17
18
19
20

21
22
23
24

25
26
27
28
, ft

-2 -

db^Ba§el2,:-t^-O^I@i(7-5)0virAJZaZB DBcmraifflratn213 IRiteaH B&MjM R&g^elZo’fdf 27

1
2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

Plaintiff,

10
11

v.

12

Unknown Eggleston, et al.,

13

NO. CV-17-04750-PHX-JAT (JZB)

Ikemefula Charles Ibeabuchi,

JUDGMENT IN A CIVIL CASE

Defendants.

14
15
16

Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.

17

IT IS ORDERED AND ADJUDGED that pursuant to the Court’s order filed

18

February 26, 2019, Plaintiff to take nothing, and the complaint and action are dismissed

19

with prejudice for failure to state a claim. This dismissal may count as a “strike” under

20

28 U.S.C. § 1915(g).
Brian D. Karth
District Court Executive/Clerk of Court

21
22
23
24

April 11, 2019
By

s/ D. Draper
Deputy Clerk

25
26
27
28
, A

(taSasfiDttBniMmanC Z2 FffltetD2I2E0I0O Pd§sgfe<3fc2H27

1

SC

2
3
4

5
6

IN THE UNITED STATES DISTRICT COURT

7

FOR THE DISTRICT OF ARIZONA

8

9

Ikemefula Charles Ibeabuchi,

10

Plaintiff,

11
12

No. CV 17-04750-PHX-JAT (JZB)

ORDER

v.
Unknown Eggleston, et al.,

13

Defendants.

14
15

Plaintiff Ikemefula Charles Ibeabuchi, who is now-confined in the Arizona State

16

Prison Complex, Meadows Unit, in Florence, Arizona, filed a pro se civil rights Complaint

17

pursuant to 42 U.S.C. § 1983 (Doc. 1) and an Application to Proceed In Forma

18

Pauperis (Doc. 2). The Court dismissed the Complaint because it failed to state a claim

19

with leave to amend (Doc. 8). Plaintiff has filed a First Amended Complaint (Doc. 10).

20

The Court will dismiss the First Amended Complaint because it fails to state a claim but

21

will grant Plaintiff leave to amend.

22

I.

Statutory Screening of Prisoner Complaints

23

The Court is required to screen complaints brought by prisoners seeking relief

24

against a governmental entity or an officer or an employee of a governmental entity. 28

25

U.S.C. § 1915A(a). The Court must dismiss a complaint or portion thereof if a plaintiff

26

has raised claims that are legally frivolous or malicious, that fail to state a claim upon which

27

relief may be granted, or that seek monetary relief from a defendant who is immune from

28

such relief. 28 U.S.C. § 1915A(b)(l)-(2).
, ft

JDDL-K
;

(taS^gil-'£Aej04f71515ayg^-TJZlBB Oraaiiirrnemt 2^ FfflEtetD2I2BZ)120 PEf§2g£<4f<2f427

1

A pleading must contain a “short and plain statement of the claim showing that the

2

pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2) (emphasis added). While Rule 8 does

3

not demand detailed factual allegations, “it demands more than an unadorned, the-

4

defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556 U.S. 662, 678

5

(2009). “Threadbare recitals of the elements of a cause of action, supported by mere

6

conclusory statements, do not suffice.” Id.

7

“[A] complaint must contain sufficient factual matter, accepted as true, to ‘state a

8

claim to relief that is plausible on its face.’” Id. (quoting Bell Atlantic Corp. v. Twombly,

9

550 U.S. 544, 570 (2007)). A claim is plausible “when the plaintiff pleads factual content

10

that allows the court to draw the reasonable inference that the defendant is liable for the

11

misconduct alleged.” Id. “Determining whether a complaint states a plausible claim for

12

relief [is]... a context-specific task that requires the reviewing court to draw on its judicial

13

experience and common sense.” Id. at 679. Thus, although a plaintiffs specific factual

14

allegations may be consistent with a constitutional claim, a court must assess whether there

15

are other “more likely explanations” for a defendant’s conduct. Id. at 681.

16

But as the United States Court of Appeals for the Ninth Circuit has instructed, courts

17

must “continue to construe pro se filings liberally.” Hebbe v. Pliler, 627 F.3d 338, 342

18

(9th Cir. 2010). A “complaint [filed by a pro se prisoner] ‘must be held to less stringent

19

standards than formal pleadings drafted by lawyers.’” Id. (quoting Erickson v. Pardus, 551

20

U.S. 89, 94 (2007) (per curiam)).

21

If the Court determines that a pleading could be cured by the allegation of other

22

facts, a pro se litigant is entitled to an opportunity to amend a complaint before dismissal

23

of the action. See Lopez v. Smith, 203 F.3d 1122, 1127-29 (9th Cir. 2000) (en banc).

24

Plaintiffs First Amended Complaint will be dismissed for failure to state a claim, but

25

because it may possibly be amended to state a claim, the Court will dismiss it with leave

26

to amend.

27

II.

28

First Amended Complaint
In his three-count First Amended Complaint, Plaintiff designates his claims as
,*

JDDL-K

-2-

Bmnuinmetnt 2J2 FffltetQPlZBMEO Pd^agS (5f<21427

1

asserting a deprivation of property without due process, excessive use of force, and a

2

violation of equal protection. Plaintiff sues “Director of Operation, FOIA/PA” Eggleston1;

3

Deportation Officer Thompson of the Department of Homeland Security (DHS); and

4

former Secretary of State John Kerry,

5

compensatory relief.

6

Background

7

The following summary is cited to provide context for Plaintiff’s claims. Plaintiff,

8

A070675261, is a citizen of Nigeria.2 See State v. Ibeabuchi, No. 1 CA-CR 16-0542,2017

9

WL 5586968, at *1-2 (Ariz. Ct. App. Nov. 21, 2017). On November 8, 2001, Plaintiff

10

pleaded guilty in Clark County District Court, case# C16162, to battery with intent to

11

commit a crime and attempted sexual assault. See Ibeabuchi v. Palmer, No. 3:06cv00280

12

(D. Nev. May 16, 2006), Doc. 1-2 at 6-10, 11-22. Plaintiff was sentenced to a term of five

13

to thirty years followed by lifetime supervision. Id., Doc. 1-3 at 5-6.

Plaintiff seeks declaratory, injunctive, and

14

In 2003, Plaintiff pleaded guilty to attempted sexual assault and sexual abuse in

15

Maricopa County Superior Court, case #CR 1999-095310, and he was sentenced to two

16

years in prison followed by lifetime probation. Ibeabuchi, 2017 WL 5586968, at *1-2.

17

Plaintiff signed the Uniform Conditions of Probation and acknowledged that all sex-

18

offender terms would be imposed. Id. Plaintiff was released from the Arizona Department

19

of Corrections on January 10, 2004 to the Nevada Department of Corrections.3 Id. In

20

21
22
23
24

25
26
27

28

JDDL-K

Plaintiff appears to be referring to Jill Eggleston, the Freedom of Information Act
(FOIA) Officer/Public Liaison for United States Citizenship and Immigration Services
(USCIS), a subsection of DHS. See https://www.dhs.gov/foia-contact-information (last
visited Feb. 5, 2019). The primary location for DHS’s day-to-day FOIA/Privacy Act
operations and appeals is at the National Records Center in Missouri. See USCIS FOIA
Request Guide, at 2-3.
2 The Executive Office for Immigration Review Telephonic Case Information
System (Ph. 1-800-898-7180) reports that Plaintiff was ordered removed by an
immigration judge on October 5, 2004. The Board of Immigration Appeals affirmed the
decision, and on August 11, 2015, denied Plaintiffs motion to reopen his case.
i

3 See https://corrections.az.gov/public-resources/inmate-datasearch (last visited
Feb. 20, 2019).
-3-

DtonumnionttTl FfflWdQ212B0ISO Pcf§ag$<6f<2H27

1

February 2014, Plaintiff was released from Nevada state prison and his custody transferred

2

to Immigration and Customs Enforcement (ICE). Id. In his First Amended Complaint,

3

Plaintiff indicates that in April 2015, he submitted a “notarized Form 656” seeking a copy

4

of his immigration A-file.4 (Doc. 10 at 10.)

5

In November 2015, ICE released Plaintiff after the Nigerian government declined

6

to issue him travel documents to return to Nigeria. Ibeabuchi, 2017 WL 5586968, at *1-2.

7

The same month, Plaintiff reported to the Maricopa Adult Probation Department. Id. In

8

2016, Plaintiff was charged with violating probation in CR 1999-095310. Plaintiff was

9

subsequently found to have violated the terms of probation and was sentenced to prison.5

10

An ICE detainer has been lodged against him upon release or the expiration of that

11

sentence.6

12
13
14
15
16
17
18
19
20

21
22

Plaintiff has attached copies of various documents to his First Amended Complaint.
These include the following:
• “Notification of Criminal Alien by Probation Agencies” completed by a
Maricopa County Probation Officer on a United States Department of Justice
Immigration and Naturalization Service form. (Doc. 10 at 29.)
• A copy of an October 5, 2016 DHS Immigration Detainer-Request for
Voluntary Action prepared by Defendant Thompson for Maricopa County to
detain Plaintiff for immigration authorities because Plaintiff had been
convicted of an aggravated felony and probable cause existed for Plaintiff s
removal from the United States because a final order of removal had issued.7
(Id. at 30.)
• A May 14, 2003 Minute Entry from Maricopa County Superior Court,
case#CR 1999-095310, in which Plaintiff was sentenced to a suspended
two-year sentence and lifetime probation following his guilty plea to
attempted sexual assault and sexual abuse. (Id. at 31-34.)
• Copies of a May 9, 2003 Maricopa County Superior Court Uniform

23
24
25

26
27

28

4 Plaintiff may be referring to Internal Revenue Service Offer and Compromise
Form 656 to settle tax liabilities for less than the full amount owed.
See
https://www.irs.gov/forms-pubs/about-form-656 (last accessed Feb. 20, 2019).
5 See https://corrections.az.gov/public-resources/inmate-datasearch, search Inmate
177007 (last accessed Feb. 20, 2019).
6 See n.5, supra.
7 See n?2, supra.

JDDL-K

-4-

(taSasg2:l-'£-\cj04f719&Oy9^;FJZIKB Dnxaumneimlt 2L2 FffltefcD212HZ)10O Pd^fflgfeoT(2M27

Conditions of Probation form, which in part required Plaintiff to “Abide by
the attached Special Conditions of Probation in this case,” id. at 35;
Plaintiffs Special Conditions of Probation, id. at 37; and the Judgment and
Orders for Restitution, Fines, and Fees, id. at 36. The Special Conditions of
Probation required Plaintiff to “attend, actively participate, and remain in sex
offender treatment” and to submit to “any program of psychological or
physiological assessment” if directed by the Probation Department to do so.
(Id. at 37.)
• A copy of an October 5, 2016 “Petition to Revoke Probation-Order for
Warrant” filed by the Maricopa County Probation Department against
Plaintiff for violating three sex-offender probation conditions. (Id. at 38-39.)
Attached to the Petition to Revoke is a copy of the May 9, 2003 “Original
Conditions Signed.” (Id. at 40.)

1
2
3
4
5

6
7
8

9
10

JDDL-K

m.

Failure to State a Claim

li

Plaintiff indicates that he seeks relief under 42 U.S.C. § 1983, the Freedom of

12

Information Act (FOIA) and the Privacy Act (PA), and/or Bivens v. Six Unknown Named

13

Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971). As noted above, Plaintiff

14

only names current or former federal employees as Defendants in his First Amended

15

Complaint.

16

A.

Relief under 42 U.S.C. § 1983

17

Plaintiff seeks relief under 42 U.S.C. § 1983, which provides a remedy for acts taken

18

by persons acting under color of state law. However, Plaintiff sues only current or former

19

federal employees or officers. Section 1983 does not afford relief against individuals who

20

act under color of federal law. Accordingly, to the extent that Plaintiff seeks relief under

21

§ 1983, his claims will be dismissed.

22

B.

Relief for FOIA/PA Violations

23

Although none of Plaintiffs claims is so-denominated, Plaintiff in part appears to

24

seek relief for alleged violations of FOIA or the PA. Plaintiff indicates that he submitted

25

a FOIA/PA request for his A-file, which he believes contains copies of an Internal Revenue

26

Service (IRS) audit against Wells Fargo Bank, Bank of America, Cedric Kushner, and

27

Cedric Kushner Promotions. Eighty-four pages of documents from Plaintiffs A-file were

28

withheld in response to Plaintiffs FOIA/PA request.

-5-

Plaintiff contends that the

(ta^g

B Dmoiirirneiirtt 2L2 RflftebQ2I2B0I2O Pd§ag©<8f <2427

1

withholding of the 84-pages caused him to lose personal property, which in turn prevented

2

him from being able to hire counsel to challenge his criminal charges and/or probation

3

violation proceedings. Plaintiff asserts that on April 1, 2005, the Record disclosed that

4

DHS granted California attorney Frank Ronzio permission to review Plaintiff s record

5

following a 2004 IRS audit of Plaintiff. Plaintiff asserts that Ronzio gained access via

6

fraudulent misrepresentation and by signing Plaintiff’s name. Plaintiff asserts that this also

7

entitles him to access to his complete A-file. Plaintiff claims that Defendant Eggleston

8

failed to provide him “his complete record on request,” specifically his complete A-file in

9

response to his FOIA request. Plaintiff claims that Eggleston’s alleged failure violated his

10

federal rights, privileges, or immunities, and resulted in the loss of personal property. (Doc.

11

10 at 9.) According to Plaintiff, Eggleston’s alleged withholding of the 84 pages from his

12

A-file “caused” Plaintiff’s imprisonment “due to lack of funds to retain Defense Counsel.”8

13

(Id.)

14

As the Court previously informed Plaintiff, violations of FOIA and the PA may only

15

be brought against a federal agency, in this case, the USCIS. Drake v. Obama, 664 F.3d

16
17
18
19
20

21
22
23
24

25
26
27

28

JDDL-K

g

In its last Order, the Court noted that:

According to the USCIS FOIA Guide, the subject of any requested
records must sign the request or provide proof of identity before the records
will be released to him. A third-party requester, i.e., a requester seeking
records concerning or involving someone other than himself, is entitled to
any public documents that may be in the record and documents that he may
have submitted on behalf of the subject of the file, but a third-party requester
without written consent or proof or death from the subject will receive only
nonexempt information ana records determined to be releasable under FOIA.
USCIS FOIA Guide, at 7.
The Court concluded that the 84 pages withheld concerned a third-party from whom
Plaintiff had not obtained consent. In his First Amended Complaint, Plaintiff contends that
he was the subject of the records sought and that he did not, therefore, have to obtain
consent from a third-party. Plaintiff appears to be correct, i.e., the 84 pages were not
withheld because they contained private information concerning someone other than him.
Nevertheless, an agency may withhold certain types of records concerning a subject, For
example, certain law enforcement or terrorism-related records may be withheld. See 5
U.S.C. § 552a(b). Plaintiff may challenge the failure to provide certain records under
FOIA or the PA, but he must name a proper defendant, i.e., a federal agency, and facts to
support that the agency improperly withheld requested records. Plaintiff has done neither
in the First Amended Complaint.
-6-

Oranuinrneintt 2.2 FfRtefcD212B0I2O Pd^ag^ <§f<2427

1

774, 785 (9th Cir. 2011) (“FOIA does not apply to any of the Defendants because they are

2

all individuals, not agencies.”); Bettweiser v. Gans, No. I:15cv00493, 2017 WL 1217096,

3

at *7 (D. Ida. Mar. 31, 2017), affd 715 Fed. App’x 767 (9th Cir. Mar. 22, 2018).

4

Because Plaintiff sues only individuals in his First Amended Complaint, he fails to

5

name a proper defendant for any alleged FOIA or PA claim.- Accordingly, Plaintiff fails to

6

state a claim for alleged violation of FOIA or the PA and these allegations will be

7

dismissed.
Count I

8

C.

9

Plaintiff designates Count I as a claim for violation of equal protection based upon

10

Eggleston’s alleged withholding of 84 pages from Plaintiffs A-file. To the extent that

11

Plaintiff asserts a violation of Equal Protection, he fails to state a claim.

12

“The Due Process Clause of the Fifth Amendment assures every person the equal

13

protection of the laws, ‘which is essentially a direction that all persons similarly situated

14

should be treated alike.’” Philips v. Perry, 106 F.3d 1420,1424-25 (9th Cir. 1997) (quoting

15

City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439 (1985)).9 To state a claim for

16

violation of the equal protection component of the Fifth Amendment’s Due Process Clause,

17

a plaintiff must allege that he was treated differently than similarly-situated persons and

18

that the different treatment was based either on a suspect classification, such as race or

19

religion, or violated a fundamental right. Patel v. United States Bureau of Prisons, 515

20

F.3d 807, 815, 816 (8th Cir. 2008). A plaintiff must also allege that the decision to treat

21

him differently than similarly situated persons was motivated by intentional or purposeful

22

discrimination. Id. Absent allegations that he is a member of a suspect class, or that a

23

fundamental right has been violated, a plaintiff must allege facts to support that he was

24

25
26
27
28

JDDL-K

9 The Court assumes, without deciding, that relief pursuant to Bivens is available
for equal protection claims. In Ziglar v. Abbasi,___U.S.___ , 137 S. Ct. 1843 (2017), the
Supreme Court cautioned that “expanding the Bivens remedy is now a ‘disfavored’ judicial
activity” and set forth a two-part test to determine whether a Bivens claim may proceed.
137 S. Ct. at 1857 (quoting Iqbal, 556 U.S. at 675). A court must first consider whether
the claim at issue extends Bivens in a new context from previously established Bivens cases.
Id. at 1859-60. If so, the court must apply a “special factors analysis” to determine whether
there are “special factors counselling hesitation” inexpanding Bivens. Id. at 1857, 185960.
->
-7-

daSasS;:Vrifa&AJMEMJAJyZE.B CEmaanaEililZZ2 Fated Q2Jfmtm PSg«g<8M2427

1

intentionally treated differently from others who were similarly situated without a

2

reasonable basis therefor. See Village ofWillowbrook v. Olech, 528 U.S. 562, 564 (2000).

3

Conclusory allegations do not suffice. See Village of Arlington Heights v. Metropolitan

4

Hous. Dev. Corp., 429 U.S. 252, 265 (1977).

5

Plaintiff does not allege that he is a member of a suspect class, Hydrick v. Hunter,

6

466 F.3d 676, 700 (9th Cir. 2006), or facts to support that he has been treated differently

7

based upon membership in any suspect class. Plaintiff also does not allege the violation of

8

a fundamental right. Instead, as described above, Plaintiff alleges that 84 pages from his

9

A-file were withheld from him in response to a FOIA request. Plaintiff fails to allege facts

10

to support that anyone who was similarly situated to him was treated differently absent a

11

rational basis. Accordingly, Plaintiff fails to state a claim for violation of equal protection

12

in Count I and it will be dismissed.

D.

14

Plaintiff designates Count II as a claim for violation of Equal Protection and the

15

excessive use of force during an arrest by Thompson. The standard to state a claim for

16

violation of Equal Protection is described above.

17

The use of excessive force by officers in the course of an arrest can violate an

18

arrestee’s Fourth Amendment right to be free from unreasonable seizures. See White by

19

White v. Pierce County, 797 F.2d 812, 816 (9th Cir. 1986).

20

Amendment does not prohibit the use of reasonable force. Tatum v. City & County of San

21

Francisco, 441 F.3d 1090,1095 (9th Cir. 2006). Whether force was excessive depends on

22

“whether the officers’ actions [were] ‘objectively reasonable’ in light of the facts and

23

circumstances confronting them, without regard to their underlying intent or motivation.”

24

Graham v. Connor, 490 U.S. 386, 397 (1989); Tatum, 441 F.3d at 1095; Lolli v. County of

25

Orange, 351 F.3d 410,415 (9th Cir. 2003). The Court must balance the nature and quality

26

of the intrusion against the countervailing governmental interests at stake. Graham, 490

27

U.S. at 396; Lolli, 351 F.3d at 415. Moreover,

28

JDDL-K

Count II

13

However, the Fourth

[t]he “reasonableness” of a particular use of force must be
-8-

da^s&271^eO,47$TMMA:D-ZEB nMaanestiQYZ HU027/20/2® Pgg*g$MM27

1
2
3

judged from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight............
“Not every push or shove, even if it may later seem
unnecessary in the peace of a judge’s chambers,” violates the
Fourth Amendment.

4
5

Graham, 490 U.S. at 396 (citations omitted). “Whether a particular use of force was

6

‘objectively reasonable’ depends on several factors, including the severity of the crime that

7

prompted the use of force, the threat posed by a suspect to the police or to others, and

8

whether the suspect was resisting arrest.” Tatum, 441 F.3d at 1095.

9

Plaintiff alleges the following:

10

Defendant Thompson acted with “deliberate indifference” to Plaintiff s legal status,

11

which Plaintiff claims is that of a United States citizen.10 According to Plaintiff, since

12

March 23, 2016, Thompson has discriminated against “the Plaintiff’s Record on file,

13

received by his Office on February 28, 2003, from Connie Casillas, Arizona Probation,

14

Adult Probation” (citing exhibits to his First Amended Complaint). (Doc. 10 at 20.)

15

Plaintiff appears to claim that the issuance of a replacement Alien Resident Card No.

16

2B041654108362 (expiring in 2026) by USCIS/DHS” conferred citizenship on him and

17

that Thompson’s alleged refusal to acknowledge as much constitutes “a discrimination to

18

the Derivative Class of Immigrant.”

19

voluntarily update the Immigration Records about Plaintiff caused injury of Imprisonment

20

to the Class of Invalidated Sentence.” (Id.) Plaintiff alludes to Form N-60011 and states

21

that “his Biometrics [were] captured on March 23,2016” and that he is “awaiting civic test

22

interviews and swearing-in ceremony in nine months thereafter.” (Id. at 21.) Thus,

23

Plaintiff appears to believe that the cited activities reflect that he has been granted United

24

States citizenship. (Id.) Plaintiff states that his prison unit’s resource library declined to

(Id.)

Plaintiff claims, “Defendant’s failure to

25
26
27

28

JDDL-K

10 As reflected in n.2, supra, a final order of removal has been issued against
Plaintiff; Plaintiff is not a United States citizen.
11 Form N-600 is an application for Certificate of Citizenship; Form N-400 is the
form to apply for citizenship. See https://www.uscis.gov/n-600 (last accessed Feb. 20,
2019).
-9-

daC^e2:I-7;-\e^)4f?lSSCMA-TcraBB OeoiimniCTtt 22 FfflftefcD212B0l2O Pd§ag&Mf(»427

1

copy a “Request to Update” to be sent to Defendant Thompson, so Plaintiffs Request was

2

never sent to Thompson. Plaintiff states that he has enclosed “a File-Record of the Arrest

3

Warrant of October 5, 2016.”12 Plaintiff appears to claim that he was arrested for violating

4

the terms of his probation based upon a falsified copy of his “Original Conditions of

5

Probation,”13 which was submitted by his Probation Officer, Catherine Swalwell. (Id.)

6

Plaintiff also alludes to Thompson’s arrest of Plaintiff at gunpoint and appears to

7

contend that such arrest constituted excessive force. Plaintiff does not allege when he was

8

arrested by Thompson at gunpoint or identify the circumstances surrounding that arrest.

9

That is, Plaintiff fails to allege facts concerning when and where he was arrested by

10

Thompson. Plaintiff states that Thompson

11

should ha[ve] known that[] the Plaintiff was at double jeopardy with the
arrest and/or[] that the Arresting Document was fabricated, and that, the
Arrest of the Plaintiff at gun-point, constituted excessive force, which made
him liable as charged. Whether as an, Accessory before the Fact or [an]
Accessory after the Fact, he, the Defendant Thompson deprived Plaintiff [of]
federal rights, privilege^] and immunity and caused him Damage to
Imprisonment, by an excessive force by an Officerf.]

12
13
14
15
16

(Id.)

17

Plaintiff seemingly alleges that Thompson discriminated against Plaintiff based

18

upon Plaintiff’s immigration status, and Plaintiff appears to wrongly believe that he is a

19

United States citizen. However, as described above, a final order of removal has been

20

issued against Plaintiff.

21

citizenship on an immigrant; to the contrary, it reflects that Plaintiff is not a citizen of the

22

United States. In any event, absent more, Plaintiff fails to allege facts to support that

The issuance of an alien registration card does not confer

23
24

25
26
27
28

JDDL-K

12 Plaintiff appears to be referring to the October 5, 2016 DHS Immigration
Detainer-Request for Voluntary Action prepared by Thompson and issued to Maricopa
County to detain Plaintiff for immigration authorities because Plaintiff had been convicted
of an aggravated felony and probable cause existed for Plaintiff’s removal from the United
States because a final order of removal had issued. (Doc. 10 at 30.)
13 Presumably, Plaintiff is referring to the May 9, 2003 Maricopa County Superior
Court Uniform Conditions of Probation form, which in part required Plaintiff to “Abide by
the attached Special Conditions of Probation” in Plaintiff’s Maricopa County criminal case.
(Doc. 10 at 35.)
,»
- 10-

Cja£as<2 2.1-7;^ffi715TSaQ7\-TJ-Z1B B DraauinniCTtt 22 FffltetD212e0I2O P£f§2gMT3f<2f427

1

Thompson violated Plaintiffs equal protection rights. Accordingly, Count II will be

2

dismissed to the extent that Plaintiff asserts an equal protection violation.

3

Plaintiff also asserts that Thompson used excessive force against him by arresting

4

him at gunpoint. Plaintiff fails to allege when or where Thompson arrested him or to allege

5

facts to support that Thompson’s display of his weapon was excessive under the

6

circumstances at the time. Accordingly, Plaintiff also fails to state a claim for excessive

7

use of force.
Count HI

8

D.

9

Plaintiff designates Count ID as a claim for violation of equal protection, the

10

standard for which is described above, against former Secretary of State Kerry. Plaintiff

11

alleges that:

12

Defendant Kerry’s “irrational denial of the Requester’s copy as prescribed by

13

FOIA/PA, had no governmental interest, which can preclude excessive force by an officer,

14

conspiracy, or Equal Protection.” (Doc. 10 at 11.) Records were not “escheated by the

15

Government, which can absolve the claim against it.” (Id.) “The Defendant” had no good

16

faith affirmative defense, as required in Gomez v. Toledo, 446 U.S. 635 (1980)[,]14 which

17

caused the Plaintiff’s constitutional violation of Equal Protection by excessive force by an

18

officer, at-law.” (Id.) Plaintiff states that

25

The Defendant’s supervisory capacity[] can be held liable by the Referral
and the Record of the Page of the A-File, of Director Eggleston, with
reference to the Department of State, to the extent that[] it was a known,
transferred, published matter of the FOIA/PA in-regards to the subject
herein, which permits Respondeat Superior of the Department of State.
In short, the Defendant is accountable to the Plaintiff/subject’s one-page,
Freedom of Information Act and Privacy Act, whose litigation is the essence
of excessive force by an Officer in Count m[] of this Complaint, as
subsequent arrest of the Plaintiff was not obstructed by the Defendant, in his
power to do so[,] which made him liable, at-law.

26

(Id. at 43.) Plaintiff also alludes to claims against third-party defendants under Rule

19
20
21
22
23
24

27
28

JDDL-K

14 In Gomez, the Supreme Court addressed the standard to state a § 1983 claim. As
discussed above, Plaintiff does not state a claim under § 1983 against any Defendant
because each of the Defendants acted under color of federal, not state, law.
*
- 11 -

daeasfi2:l.-7;ACJ04W5mMI^-T^ZIBB Btmourimenti 27? Bfl&edO2120M2O P^ag£2M(2K27

1

14(a)(3) of the Federal Rules of Civil Procedure and to joinder under the Federal Rules of

2

Civil Procedure.

3

Defendant as it deems appropriate under 28 U.S.C. §§ 754 and 959(a). As his injury,

4

Plaintiff states that “Defendant acted[] to possess the property of the Plaintiff, in his

5

custody without[] consent, (a felony) and injured Plaintiff by excessive force.” (Id. at 11.)

6

To the extent that Plaintiff asserts liability against Defendant Kerry based upon

7

respondeat superior, Plaintiff fails to state a claim. Iqbal, 556 U.S. at 676. Otherwise,

8

Plaintiff fails to allege when, where, or how Defendant Kerry allegedly violated Plaintiffs

9

federal constitutional or statutory rights. Indeed, Plaintiffs allegations are difficult to

10

follow or understand. Accordingly, Plaintiff fails to state a claim in Count III and it will

11

be dismissed

12

IV.

Plaintiff asserts that this Court should apply the claim against the

Leave to Amend

13

For the foregoing reasons, Plaintiffs First Amended Complaint will be dismissed

14

for failure to state a claim upon which relief may be granted. Within 30 days, Plaintiff may

15

submit a second amended complaint to cure the deficiencies outlined above. The Clerk of

16

Court will mail Plaintiff a court-approved form to use for filing a second amended

17

complaint. If Plaintiff fails to use the court-approved form, the Court may strike the second

18

amended complaint and dismiss this action without further notice to Plaintiff.

19

Plaintiff must clearly designate on the face of the document that it is the “Second

20

Amended Complaint.” The second amended complaint must be retyped or rewritten in its

21

entirety on the court-approved form and may not incorporate any part of the original

22

Complaint or First Amended Complaint by reference. Plaintiff may include only one claim

23

per count.

24

A second amended complaint supersedes the original Complaint and First Amended

25

Complaint. Ferdik v. Bonzelet, 963 F.2d 1258, 1262 (9th Cir. 1992); Hal Roach Studios v.

26

Richard Feiner & Co., 896 F.2d 1542, 1546 (9th Cir. 1990). After amendment, the Court

27

will treat the original Complaint and First Amended Complaint as nonexistent. Ferdik,

28

963 F.2d at 1262. Any cause of action that was raised in the original Complaint or First

.<

JDDL-K

- 12-

ClaSase 2:1-‘£agj04[71515(M^-™k B Oraoimnortt 22 FfflfefcD212B012O Pcf§2gb3k5f<2f427

1

Amended Complaint and that was voluntarily dismissed or was dismissed without

2

prejudice is waived if it is not alleged in a second amended complaint. Lacey v. Maricopa

3

County, 693 F.3d 896, 928 (9th Cir. 2012) (en banc).

4

V.

5

A.

6

If Plaintiff is released while this case remains pending, and the filing fee has not

7

been paid in full, Plaintiff must, within 30 days of his release, either (1) notify the Court

8

that he intends to pay the unpaid balance of his filing fee within 120 days of his release or

9

(2) file a non-prisoner application to proceed in forma pauperis. Failure to comply may

10

JDDL-K

Warnings
Release

result in dismissal of this action.

11

B.

Address Changes

12

Plaintiff must file and serve a notice of a change of address in accordance with Rule

13

83.3(d) of the Local Rules of Civil Procedure. Plaintiff must not include a motion for other

14

relief with a notice of change of address. Failure to comply may result in dismissal of this

15

action.

16

C.

Possible “Strike”

17

Because the First Amended Complaint has been dismissed for failure to state a

18

claim, if Plaintiff fails to file a second amended complaint correcting the deficiencies

19

identified in this Order, the dismissal may count as a “strike” under the “3-strikes”

20

provision of 28 U.S.C. § 1915(g). Under the 3-strikes provision, a prisoner may not bring

21

a civil action or appeal a civil judgment in forma pauperis under 28 U.S.C. § 1915 “if the

22

prisoner has, on 3 or more prior occasions, while incarcerated or detained in any facility,

23

brought an action or appeal in a court of the United States that was dismissed on the

24

grounds that it is frivolous, malicious, or fails to state a claim upon which relief may be

25

granted, unless the prisoner is under imminent danger of serious physical injury.” 28

26

U.S.C. § 1915(g).
Possible Dismissal

27

D.

28

If Plaintiff fails to timely comply with every provision of this Order, including these

- 13 -

C]aC^e3:l-I;Aej04(?l5WMA-T^ZIBB Dmauinmetntt 22 Fffl*etO212E012O Pd§agML6f(2H27

1

warnings, the Court may dismiss this action without further notice. See Ferdik, 963 F.2d

2

at 1260-61 (a district court may dismiss an action for failure to comply with any order of

3

the Court).

4

IT IS ORDERED:

5

(1)

The First Amended Complaint (Doc. 10) is dismissed for failure to state a

6

claim. Plaintiff has 30 days from the date this Order is filed to file a second amended

7

complaint in compliance with this Order.

8

(2)

If Plaintiff fails to file a second amended complaint within 30 days, the Clerk

9

of Court must, without further notice, enter a judgment of dismissal of this action with

10

prejudice that states that the dismissal may count as a “strike” under 28 U.S.C. § 1915(g)

11

and deny any pending unrelated motions as moot.

12
13
14

(3)

The Clerk of Court must mail Plaintiff a court-approved form for filing a

civil rights complaint by a prisoner.
Dated this 26th day of February, 2019.

15
16
17
James A. TeUborg
Senior United States District Judge

18
19
20
21
22
23
24
25
26
27
28

JDDL-K

- 14-

